<html>
<title> - THE DEPARTMENT OF ENERGY'S OFFICE OF SCIENCE: EXPLORING THE NEXT FRONTIERS IN ENERGY RESEARCH AND SCIENTIFIC DISCOVERY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                       THE DEPARTMENT OF ENERGY'S
                    OFFICE OF SCIENCE: EXPLORING THE
                        NEXT FRONTIERS IN ENERGY
                   RESEARCH AND SCIENTIFIC DISCOVERY

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            January 15, 2020

                               __________

                           Serial No. 116-63

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                         ______    
                         
             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-913 PDF           WASHINGTON : 2020        
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                                 ------                                

                         Subcommittee on Energy

                HON. LIZZIE FLETCHER, Texas, Chairwoman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
JERRY McNERNEY, California           MICHAEL CLOUD, Texas
BILL FOSTER, Illinois                JIM BAIRD, Indiana
SEAN CASTEN, Illinois
CONOR LAMB, Pennsylvania

                         C  O  N  T  E  N  T  S

                            January 15, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     8

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    11

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written statement............................................    13

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    14

                                Witness:

Dr. Chris Fall, Director, Office of Science, U.S. Department of 
  Energy
    Oral Statement...............................................    15
    Written Statement............................................    17

Discussion.......................................................    20

             Appendix I: Answers to Post-Hearing Questions

Dr. Chris Fall, Director, Office of Science, U.S. Department of 
  Energy.........................................................    40


                       THE DEPARTMENT OF ENERGY'S

                    OFFICE OF SCIENCE: EXPLORING THE

                   NEXT FRONTIERS IN ENERGY RESEARCH

                        AND SCIENTIFIC DISCOVERY

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2020

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lizzie 
Fletcher [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Fletcher. This hearing will come to order. 
Without objection, the Chair is authorized to declare a recess 
at any time. Good afternoon, and welcome to our first Energy 
Subcommittee hearing of 2020 entitled, ``The Department of 
Energy's Office of Science: Exploring the Next Frontiers in 
Energy Research and Scientific Discovery.'' I'm glad to be here 
today as the new Chair of the Energy Subcommittee, and I'm 
looking forward to leading us through an important and busy 
year of hearings and legislative action to help provide clean, 
reliable, and secure energy resources and services for every 
American, and for the world.
    We're here today to discuss the role of the Office of 
Science at the Department of Energy (DOE) in fulfilling this 
mission. The Office of Science is the Nation's premiere Federal 
agency that supports research in the physical sciences for 
energy and other applications. It oversees 10 of DOE's 17 
national labs, and it houses 6 program offices, focused on 
everything from advanced computing and material science to 
biological and nuclear physics research. It is also the home of 
DOE's work on climate modeling.
    The Office of Science plays a critical role in our fight 
against climate change. It is uniquely positioned to help us 
reach our shared goals of developing energy that is clean, 
sustainable, reliable, and affordable. This is no small task. 
We need everyone working together to achieve this goal, and to 
do so as quickly as possible. That's why it is essential that 
we invest our shared resources in this research, and that we 
identify and enable the critical research that we need to 
invest in.
    In order to develop effective solutions, we need to start 
with the science. The Office of Science supports a wide range 
of research efforts to ask the right questions and find the 
best answers, and the Office of Science has an important role 
to play in the advancement of the physical sciences as well. In 
the past year, scientists and researchers supported by this 
Office have contributed to the development of nanoscale cancer 
treatments that provide targeted drug delivery, a Dark Energy 
Survey that will help answer fundamental questions about why 
our universe is expanding, and algae that can capture and store 
carbon dioxide, and those are just a few examples of the 
various efforts supported by the Office each and every year.
    Collaboration on these issues is critical. It is what I 
have witnessed on this Committee time and again, and I've seen 
the Office of Science do this successfully. Working with 
researchers at Rice University in Houston has led to a 
breakthrough way to use imperfections in lithium-ion batteries, 
which had typically been expected to degrade battery 
performance, to make this important technology perform better 
instead. This is just one of many exciting research 
collaborations between the Office of Science and the companies 
and research institutions that call Houston home. I'm glad Dr. 
Fall is here today, and look forward to hearing more about the 
recent developments at the Office of Science, and ways that we 
can all work together to help it achieve its mission.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon, and welcome to our first Energy 
Subcommittee hearing of 2020.
    I am glad to be here today as the new Chairwoman of the 
Energy Subcommittee and am looking forward to leading us 
through an important and busy year of hearings and legislative 
action to help provide clean, reliable, and secure energy 
resources and services for every American--and for the world.
    We are here today to discuss the role of the Office of 
Science at the Department of Energy in fulfilling this mission. 
The Office of Science is the nation's premier federal agency 
that supports research in the physical sciences for energy and 
other applications. It oversees ten of DOE's seventeen national 
labs, and it houses six program offices focused on everything 
from advanced computing and materials science to biological and 
nuclear physics research. It is also the home of DOE's work on 
climate modeling.
    The Office of Science plays a critical role in our fight 
against climate change. It is uniquely positioned to help us 
reach our shared goals of developing energy that is clean, 
sustainable, reliable, and affordable. This is no small task. 
We need everyone working together to achieve this goal, and to 
do so as quickly as possible. That is why it is essential that 
we invest our shared resources in this research and that we 
identify and enable the critical research we need to invest in.
    In order to develop effective solutions, we need to start 
with the science. The Office of Science supports a wide range 
of research efforts to ask the right questions and to find the 
best answers.
    And the Office of Science has an important role to play in 
the advancement of the physical sciences as well. In the past 
year, scientists and researchers supported by this office have 
contributed to the development of nanoscale cancer treatments 
that provide targeted drug delivery, a Dark Energy Survey that 
will help answer fundamental questions about why our universe 
is expanding, and algae that can capture and store carbon 
dioxide. And those are just a few examples of the various 
efforts supported by this Office each and every year.
    Collaboration on these issues is critical. It is what I 
have witnessed on this committee time and again. And I've seen 
the Office of Science do this successfully. Working with 
researchers at Rice University in Houston has led to a 
breakthrough way to use imperfections in lithium-ion batteries, 
which had typically been expected to degrade battery 
performance, to make this important technology perform better 
instead. This is just one of many exciting research 
collaborations between the Office of Science and the companies 
and research institutions that call Houston their home.
    I am glad Dr. Fall is here today and look forward to 
hearing more about recent developments at the Office of 
Science, and ways that we can work together to help it achieve 
its mission.
    With that, I yield back.

    Chairwoman Fletcher. I will now recognize Ranking Member 
Weber for an opening statement.
    Mr. Weber. Thank you, Madam Chairwoman, and 
congratulations, I think, on getting appointed to this 
Committee. You may have second thoughts about it after a while, 
but we're glad you're here. We appreciate you hosting this 
hearing, and thank you, Dr. Fall, for being here this 
afternoon. I'm excited to hear about the critical work being 
performed at the Department of Energy, DOE's, Office of 
Science. As we know, DOE is the largest Federal sponsor of 
basic research in the physical sciences. This Committee's 
jurisdiction includes all of DOE's civilian research, including 
almost $13 billion, with a B, in research, development, 
demonstration, and commercial application programs, as well as 
the Department's 17 national labs, which amounts to about one 
third of DOE's total budget. As Ranking Member of the Energy 
Subcommittee, I take great pride in this responsibility, and I 
believe that one of the most important pieces, if not the most 
important piece, of our portfolio is the DOE Office of Science. 
That's why I'm a little surprised, quite frankly, that this 
Congress this is the first hearing we've had held on this 
agency, especially since the Office of Science is a $7 billion, 
with a B, dollar program that represents actually more than 
half of this Subcommittee's jurisdiction.
    Instead, last year we had many hearings on advanced 
renewable energy technologies, from solar and wind, to 
sustainable transportation, to geothermal and hydropower. Now, 
while I'm very supportive of these technologies, I think we can 
all agree that there's one key weakness that they have in 
common, one that industry will never address. In order for 
these technologies to truly provide reliable and affordable 
grid scale electricity across these United States, they will 
require access to next generation energy storage materials and 
technologies. To meet this need, strong and strategic support 
for basic research in material science and computing through 
the Office of Science is absolutely critical. And that's just 
one example of the importance of this agency's work.
    In the past few decades, research conducted through the 
Office of Science has led to monumental discoveries in material 
science in computing, in fundamental physics, and biological 
sciences, and has enabled the development of innovative energy 
technology. Each DOE lab has made invaluable contributions to 
U.S. scientific progress, and they have repeatedly demonstrated 
that basic science research is the most effective way to 
encourage that innovation. Additionally, the unique open access 
user facilities at these Office of Science labs provides our 
Nation's researchers with the most cutting-edge tools of modern 
science, like advanced light sources, particle accelerators, 
and the two fastest supercomputers in the entire world. Each 
year thousands of researchers from academia, other Federal 
agencies, and U.S. industry partners, from Fortune 500 
companies, to even small businesses, rely on those DOE 
facilities to perform new scientific research and develop those 
new technologies.
    Thanks to the Office of Science and its decades of 
excellent work, the United States is the world leader in basic 
science research and technological development. But even as we 
speak, other countries, for example China, are making 
significant investments in science and threatening our global 
leadership. The Department's continued investment in basic and 
early-stage research is vital, absolutely vital, to the 
maintenance of our technological edge. By investing wisely in 
this research, the Department can achieve its goal of 
scientific discovery and technological breakthrough for our 
future generations.
    DOE must also invest in facility upgrades, and basic 
infrastructure that attracts and retains the best scientists in 
the world right here at home. I look forward to hearing from 
Dr. Fall about his plans to address these issues. I also look 
forward to hearing from Dr. Fall about DOE's ongoing 
implementation of several key pieces of bipartisan Science 
Committee legislation that was signed into law last Congress, 
in fact, including the DOE Research and Innovation Act, and the 
National Quantum Initiative Act. When basic research is the 
priority of Federal support, everyone has the opportunity to 
access these fundamental knowledge that can lead to the 
development of those future energy technologies.
    I'd like to take a moment to thank my friends across the 
aisle for holding this hearing. I'm pleased to see, especially 
with our new Chairwoman, that we're starting off the new year 
on the right foot by focusing on this key aspect of our 
jurisdiction. I'm going to thank Dr. Fall for being here today, 
and, a point of personal privilege, if I may, Madam Chair, it 
turns out that there's a bit of sadness here today because we 
are losing one Ms. Emily Domenech, who is sitting behind me. 
She has been with our part of the Committee for a long time. 
She keeps us on the straight and narrow, and that's a full-time 
job. So let's give her a hand. Can we recognize her help? And 
with that, Madam Chair, she's red, and I yield back.
    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairwoman Fletcher, for hosting this hearing, 
and thank you Dr. Fall for being here this afternoon. I am 
excited to hear about the critical work being performed at the 
Department of Energy's (DOE) Office of Science.
    DOE is the largest Federal sponsor of basic research in the 
physical sciences. This Committee's jurisdiction includes all 
of DOE's civilian research, including almost $13 billion in 
research, development, demonstration, and commercial 
application programs, as well as the Department's 17 national 
labs. This amount totals one-third of the DOE's budget.
    As Ranking Member of the Energy Subcommittee I take great 
pride in this responsibility. And I believe that one of the 
most important pieces, if not the most important piece, of our 
portfolio is the DOE Office of Science.
    That is why I am a little surprised that this Congress, 
this is the first hearing we have held on this agency. 
Especially since the Office of Science is a $7 billion dollar 
program that represents more than half of this Subcommittee's 
jurisdiction.
    Instead, last year, we had many hearings on advanced 
renewable energy technologies from solar and wind, to 
sustainable transportation, geothermal and hydropower.
    And while I am very supportive of these technologies, I 
think we can all agree that there is one key weakness they all 
have in common. One that industry will never address.
    In order for these technologies to truly provide reliable 
and affordable grid-scale electricity across the United States, 
they will require access to next generation energy storage 
materials and technologies. To meet this need, strong and 
strategic support for basic research in materials science and 
computing through the Office of Science is critical.
    This is just one example of the importance of this agency's 
work. In the past few decades, research conducted through the 
Office of Science has led to monumental discoveries in 
materials science, computing, fundamental physics, and 
biological sciences, and has enabled the development of 
innovative energy technology.Each DOE lab has made invaluable 
contributions to U.S. scientific progress. And they have 
repeatedly demonstrated that basic science research is the most 
effective way to encourage innovation.
    Additionally, the unique, open-access user facilities at 
these Office of Science labs provide our nation's researchers 
with the most cutting-edge tools of modern science, like 
advanced light sources, particle accelerators, and the two 
fastest supercomputers in the world. Each year, thousands of 
researchers from academia, other Federal agencies, and U.S. 
industry partners, from Fortune 500 companies to small 
businesses, rely on DOE facilities to perform new scientific 
research and develop new technologies.
    Thanks to the Office of Science and its decades of 
excellent work, the United States is the world leader in basic 
science research and technological development.
    But even as we speak, other countries, like China, are 
making significant investments in science and threatening our 
global leadership.
    The Department's continued investment in basic and early-
stage research to vital to the maintenance of our technology 
edge.
    By investing wisely in this research, the Department can 
achieve its goal of scientific discovery and technological 
breakthroughs for future generations. DOE must also invest in 
the facility upgrades and basic infrastructure that attracts 
and retains the best scientists in the world here at home. I 
look forward to hearing from Dr. Fall about his plans to 
address these issues.
    I also look forward to hearing from Dr. Fall about DOE's 
ongoing implementation of several key pieces of bipartisan 
Science Committee legislation that was signed into law last 
Congress--including the DOE Research and Innovation Act, and 
the National Quantum Initiative Act.
    When basic research is the priority of federal support, 
everyone has the opportunity to access the fundamental 
knowledge that can lead to the development of future energy 
technologies.
    I'd like to take a moment to thank my friends across the 
aisle for holding this hearing. I am pleased to see that we are 
starting off the New Year on the right foot by focusing on this 
key aspect of our jurisdiction. Thank you again Dr. Fall for 
taking the time to be here today.

    Chairwoman Fletcher. Thank you, Mr. Weber. And I would now 
like to recognize Mr. Lucas for an opening statement.
    Mr. Lucas. Thank you, Madam Chair, and today we welcome Dr. 
Chris Fall, the Director of the Department of Energy's Office 
of Science to discuss the program's priorities for Fiscal Year 
2020 and beyond. Before he joined the Office of Science in 
2019, Dr. Fall served as the Acting Director of the Advanced 
Research Project Agencies--Energy, ARPA-E, near and dear to 
many of our hearts. These are two DOE programs where I'm 
pleased to say the Science Committee has found a lot of 
bipartisan agreement over the years. I look forward to carrying 
on that tradition this Congress, and I would like to thank Dr. 
Fall for his work.
    DOE is a world leader in technology development and 
scientific innovation. Through the Office of Science, the 
Department funds robust research programs across the scientific 
disciplines, from material science and mathematical modeling, 
to fusion energy science, and the study of neutrinos. 
Discoveries made through the Office of Science are the force 
behind the development of next generation energy technologies. 
They are the cornerstone of our clean energy future. If we are 
serious about the climate issues we discussed this morning, 
then we should equally be serious about our support for this 
agency and bold investments in basic research. The Science 
Committee has jurisdiction over all of the Office of Science 
research and development activities, and its 10 DOE national 
laboratories, which total $7 billion in annual spending at DOE. 
This afternoon our discussion with Dr. Fall will focus on the 
programs within this critical jurisdiction.
    This Committee has consistently supported robust funding 
for the Office of Science. In particular, its basic energy 
sciences, high energy physics, advanced scientific computing 
research, and fusion energy sciences programs have long 
received bipartisan support from this Committee. For example, 
Committee Members on both sides of the aisle have steadily 
supported full funding for the U.S. contributions to ITER, a 
high-priority fusion energy experiment funded through the 
Office of Science. I was pleased to see the Fiscal Year 2020 
appropriations package included enough funding to maintain our 
participation in this world-leading international research 
collaboration. Fusion is the next generation scientific 
frontier, and with the potential to produce near limitless zero 
emission power for centuries.
    Another one of our great areas of bipartisan agreement is 
the Advanced Scientific Computer Research (ASCR) Program, one 
of the Science Office's top priority programs. ASCR supports 
the Department's goal of completing the world's first exascale 
computing system. Exascale systems will perform one billion 
calculations per second, and developing one is critical to 
enabling scientific discovery, strengthening national security, 
and promoting U.S. industrial competitiveness thanks to DOE's 
targeted investments. The United States now hosts the top two 
fastest supercomputers in the world: Summit at Oak Ridge 
National Laboratory, and Sierra at Lawrence Livermore National 
Laboratory; and the Department is on track to reach exascale by 
2021.
    As other countries, like China, race to develop exascale 
systems of their own, DOE's continued strong support of 
advanced computing is essential to the maintenance of U.S. 
leadership in this field. In order to support innovation in 
next-generation science, DOE must also invest in research 
infrastructure and cross-cutting research initiatives with 
other Federal agencies. This includes Office of Science 
initiatives in critical research areas like quantum information 
science and artificial intelligence, as well as key investments 
in our Nation's light resources and neutron resources.
    I want to thank Chairwoman Fletcher for holding this 
hearing, and Dr. Fall for his testimony today. I look forward 
to a productive and valuable discussion. Our twin goals of 
addressing today's climate challenges with affordable, reliable 
clean energy solutions, and ensuring that the United States 
remains a world leader in science and energy technology for 
years to come, while we continue our shared commitment to 
prioritize basic research supported by this critical agency. 
And with that, Madam Chair, I yield back.
    [The prepared statement of Mr. Lucas follows:]

    Today we welcome Dr. Chris Fall, the Director of the 
Department of Energy's Office of Science to discuss the 
program's priorities for fiscal year 2020 and beyond.
    Before he joined the Office of Science in 2019, Dr. Fall 
served as Acting Director of the Advanced Research Projects 
Agency--Energy (ARPA-E). These are two DOE programs where, I am 
pleased to say, the Science Committee has found a lot of 
bipartisan agreement over the years. I look forward to carrying 
on that tradition this Congress and I would like to thank Dr. 
Fall for his work.
    DOE is a world leader in technology development and 
scientific innovation. Through the Office of Science, the 
Department funds robust research programs across the scientific 
disciplines--from materials science and mathematical modeling 
to fusion energy science and the study of neutrinos.
    Discoveries made through the Office of Science are the 
force behind the development of nextgeneration energy 
technologies. They are the cornerstone of our clean energy 
future. If we are serious about the climate issues we discussed 
this morning, then we should be equally serious about our 
support for this agency and bold investments in basic research.
    The Science Committee has jurisdiction over all of the 
Office of Science research and development activities and its 
10 DOE National Laboratories--which totals $7 billion in annual 
spending at DOE. This afternoon, our discussion with Dr. Fall 
will focus on programs within this critical jurisdiction.
    This Committee has consistently supported robust funding 
for the Office of Science.
    In particular, its Basic Energy Sciences, High Energy 
Physics, Advanced Scientific Computing Research, and Fusion 
Energy Sciences programs have long received bipartisan support 
from this Committee.
    For example, Committee members on both sides of the aisle 
have steadily supported full funding for U.S. contributions to 
the ITER project, a high priority fusion energy experiment 
funded through the Office of Science. I was pleased to see that 
the fiscal year 2020 appropriations package included enough 
funding to maintain our participation in this worldleading 
international research collaboration. Fusion is the next great 
scientific frontier--with the potential to produce near-
limitless, zero emission power for centuries.
    Another one of our great areas of bipartisan agreement is 
for the Advanced Scientific Computing Research (ASCR) program, 
one of the Office of Science's top priority programs. ASCR 
supports the Department's goal of completing of the world's 
first exascale computing system.
    Exascale systems will perform one billion, billion 
calculations per second and developing one is critical to 
enabling scientific discovery, strengthening national security, 
and promoting U.S. industrial competitiveness. Thanks to DOE's 
targeted investments, the United States now hosts the top two 
fastest supercomputers in the world--Summit at Oak Ridge 
National Laboratory, and Sierra at Lawrence Livermore National 
Laboratory. And the Department is on track to reach exascale by 
2021. As other countries like China race to develop exascale 
systems of their own, DOE's continued strong support of 
advanced computing is essential to maintain U.S. leadership in 
this field.
    In order to support innovation in next-generation science, 
DOE must also invest in research infrastructure and cross-
cutting research initiatives with other Federal agencies.
    This includes Office of Science initiatives in critical 
research areas like quantum information science and artificial 
intelligence, as well as key investments in our nation's light 
sources and neutron sources.
    I want to thank Chairwoman Fletcher for holding this 
hearing and Dr. Fall for his testimony today. I look forward to 
a productive and valuable discussion. Our twin goals of 
addressing today's climate challenges with affordable and 
reliable clean energy solutions, and ensuring that the United 
States remains a world leader in science and energy technology 
for years to come, require that we continue our shared 
commitment to prioritize basic research supported by this 
critical agency.

    Chairwoman Fletcher. Thank you very much, Mr. Lucas, for 
that opening statement. If there are other Members who would 
like to submit additional opening statements, your statements 
will be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you Chairwoman Fletcher for holding this hearing 
today, and I would also like to thank Dr. Fall for being here.
    The Department of Energy's Office of Science is actually 
the largest supporter of research in the physical sciences in 
the country, and it operates more than 30 national scientific 
user facilities whose applications go well beyond energy 
innovation. Our nation's top researchers from industry, 
academia, and other federal agencies use these facilities to 
examine everything from new materials that will better meet our 
military's needs, to new pharmaceuticals that will better treat 
disease, to even examining the fundamental building blocks of 
the universe. I believe that this stewardship of unique 
scientific research, including the nation's major national user 
facilities, is an important role that I hope the Department 
will continue to make one of its highest priorities.
    Now, while this Office supports many critical research 
programs and facilities, I would like to take this opportunity 
to briefly talk about your role in fostering fusion energy 
research and, specifically, the ITER international fusion 
project. I was pleased that back in 2018, the President signed 
into law the Department of Energy Research and Innovation Act, 
which I was proud to sponsor with the Committee's Chairman at 
the time, Mr. Smith. That law requires the Office of Science 
Director to, among other things, establish an innovative 
concepts program as well as an inertial fusion energy program 
to further pursue breakthrough ideas that, thus far, had no 
real home in the Department's research portfolio. I hope that 
you are already taking steps to finally address this important 
legislative direction as soon as possible.
    I am also quite happy that the President just signed into 
law a substantial increase in support for the ITER 
international fusion project, which I and Ranking Member Lucas 
strongly advocated for. It is crucial that we honor our 
commitment to this project, and ensure that we are providing 
the funds that the Department of Energy itself determined would 
be necessary to maintain its construction schedule and minimize 
its total cost to U.S. taxpayers. The completion and operation 
of ITER will make major contributions to what we know of fusion 
energy today. And if successful, this project could be a huge 
game changer in the energy future of not only our nation, but 
for humanity as a whole. I hope that the Department's next 
budget request finally reflects the support that this project 
requires and certainly deserves.
    Thank you, and with that I yield back the balance of my 
time.

    At this time I would like to introduce our witness. Of 
course, we got a nice preview. As Ranking Member Lucas 
mentioned, Dr. Fall is the Director of the Department of 
Energy's Office of Science, the lead Federal agency supporting 
scientific research for energy applications, and the Nation's 
largest supporter of research in the physical sciences. Prior 
to his current role, he served as senior advisor to DOE's 
Undersecretary for Energy, and as acting director of DOE'S 
Advanced Research Project Agency for Energy, better known as 
ARPA-E. Before coming to DOE he worked in various roles at the 
Office of Naval Research, and at the White House Office of 
Science and Technology Policy. Dr. Fall began his career in 
academia, serving as a faculty member at the University of 
Illinois, Chicago, in the Bioengineering and Anatomy and Cell 
Biology Departments.
    Dr. Fall, you will have 5 minutes for your spoken 
testimony. Your written testimony will be included in the 
record of the hearing. When you've completed your spoken 
testimony, we'll move on to questions. Each Member will have 5 
minutes to ask questions, and we look forward to hearing from 
you, and then having an exchange, so your testimony can begin.

                  TESTIMONY OF DR. CHRIS FALL,

                  DIRECTOR, OFFICE OF SCIENCE,

                    U.S. DEPARTMENT OF ENERGY

    Dr. Fall. Chairwoman Fletcher, Ranking Member Weber, and 
Members of the Committee, thank you for the privilege of being 
here today on behalf of Secretary Brouillette to discuss the 
remarkable work being done by the Office of Science at the U.S. 
Department of Energy. I've been Director of the Office since my 
swearing in at the end of May, and together with the 
researchers we support at our laboratories and universities, 
and in the private sector, we're working both to discover the 
secrets of the physical world, and to bring scientific 
discovery to bear on critical needs for energy security, 
economic competitiveness, and national security.
    I'm lucky to come to the Department of Energy at a special 
time of opportunity for American science. The House and the 
Senate clearly are aware of the intense landscape of 
international competition in research and development, and the 
critical importance of maintaining U.S. leadership in science. 
With your support, the Office of Science funds tens of 
thousands of scientists, students, and technical and 
administrative staff. We continue to build some of the most 
amazing scientific instruments and open access user facilities 
in the world, and to upgrade those that we already have. The 
Office of Science is currently beginning work on the Deep 
Underground Neutrino Experiment a mile underground in South 
Dakota, and astronauts in December just extended the life of 
the Alpha-Magnetic Spectrometer orbiting 200 miles above 
ground, attached to the International Space Station. We're 
upgrading both the Advanced Photon Source at Argonne National 
Laboratory, and the Advanced Light Source at Berkeley, and 
we're building not one, but three game-changing exascale 
supercomputers, in conjunction with the National Nuclear 
Security Administration.
    Just last week we announced the launch of a new effort to 
build a game-changing Electron Ion Collider for nuclear 
physics, and, while robustly supporting the traditional 
physical science mission of the Office of Science, we're in the 
process of launching and expanding a number of exciting new 
initiatives, including building the Quantum Information Science 
Centers as part of the National Quantum Initiative authorized 
by Congress, incorporating artificial intelligence and machine 
learning into many of the things that we do across the 
Department, advancing biotechnology to grow the bioeconomy and 
to enhance biosecurity, and other research to promote the 
growth of industries of the future now being supported by the 
Administration. We collaborate with the best scientists from 
around the world in our laboratories and in theirs, and at the 
same time we're paying close attention to emerging threats like 
misappropriation of intellectual property, and dual use 
technology, and we're taking the necessary steps to help 
mitigate those threats.
    As we strive to push back the frontiers of science, we're 
mindful of the need to be the best possible stewards of the 
Department's labs and user facilities. Most of the 10 Office of 
Science laboratories date to the cold war or earlier. In our 
planning, and in our budget requests, we're asking to renew and 
refurbish the physical infrastructure of these laboratories in 
order to sustain them for the future. It simply would be 
irresponsible to build something like a new accelerator or 
light source on a foundation of crumbling and unreliable 
electricity, water, and other critical infrastructure. So as we 
build new capabilities, we must continue to maintain and 
modernize our laboratories' basic infrastructure. I hope that 
you and your staffers will appreciate this balance that we are 
trying to achieve as you evaluate our budget requests.
    I'd like to mention in closing that the 2019 Nobel Prize in 
Chemistry was awarded to John Goodenough, Stanley Whittingham, 
and Akira Yoshino for the development of lithium-ion batteries, 
a technology I think we can all agree has essentially changed 
our way of life. Both Goodenough and Whittingham are long-time 
DOE-supported researchers. For the Department of Energy's 
science enterprise, identifying and supporting incredible 
talent like these researchers is just one part of the 
commitment we have to push back the boundaries of what's 
possible. And as amazing as winning even a single Nobel Prize 
is, the Department has supported over 100 Nobel Prizes. Because 
of the investment the American people make in robust support 
for basic research, because of the scope and scale of our 
laboratory system and the universities we partner with, and the 
remarkable scientists and staff we attract, the amazing happens 
each and every day.
    So thank you, Madam Chair, for the opportunity to share the 
DOE leadership team's pride in the people and programs of our 
Office of Science and our laboratories. We are in awe every day 
of their dedication and their accomplishments, and I'm deeply 
honored to be their Director. And with that, I'd like to try to 
answer any questions that you might have.
    [The prepared statement of Dr. Fall follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Fletcher. Thank you so much, Dr. Fall. We will 
begin our first round of questions. I will start, recognizing 
myself for 5 minutes.
    And I thank you for the update, and congratulations to the 
entire team. I think we are all impressed by the incredible 
work that's being done, and I want to touch on two things you 
just talked about in your testimony. First, you mentioned 
competitiveness in the current environment, and we know that 
the Office of Science's national labs have several world-class 
user facilities, including five light sources, two neutron 
sources, an array of particle accelerators, the fastest 
supercomputer in the world, Summit, which is located at Oak 
Ridge National Lab. In terms of the technological capabilities, 
power capacity, and access, how do these facilities compare 
with competitors around the world, and how do our investments 
in these facilities contribute to the U.S.' global leadership 
in scientific research?
    Dr. Fall. Well, thanks for the question. I'd say they 
compare very favorably. Most obviously, supercomputing is the 
most famous, where we're sort of strikingly ahead at the 
moment, but it's a ``horse race,'' and so it's not a place 
where you can let up, you know, your guard. We're developing 
new technologies, particularly important are accelerator 
technologies, and these are also fundamentally dual use. So 
while we're pushing forward the frontiers of science, and the 
capabilities of these machines, we're also developing 
technologies that are relevant to national security, as are 
other countries around the world. We mentioned China earlier. 
They are very keen to compete with us not just to have 
capabilities, but to attract scientists from around the world, 
which is what these world class facilities do. So I'd say we're 
in a reasonably good place, but it is a ``horse race.'' Europe, 
the United States, China, Japan, it's not so differentiated 
when it comes to those key technologies.
    Chairwoman Fletcher. Thank you, that's helpful. I think the 
other topic I definitely want to touch on, in the context of 
this ``horse race,'' and this competitive international 
environment, there also is an emphasis on international 
collaboration, and in your testimony you mention the global 
nature of the research conducted at the Office of Science, and 
threats of misappropriation of technology that that raises with 
the international collaboration. Kind of relating to that 
topic, I think one of the things that's going on simultaneously 
is that the Administration's been taking steps to restrict U.S. 
researchers from participating in some foreign talent 
recruitment programs as well.
    So I think what would be helpful to us is to understand 
what actions the Office of Science has taken in response to 
that directive, and also how you can balance the need, or how 
you are balancing the need, for protecting against potential 
misappropriation, while at the same time participating in the 
collaborative international efforts that benefit the American 
research enterprise. Can you just talk a little bit about that 
to us?
    Dr. Fall. Sure. Well, let me start by saying for the 
Department of Energy, it's not just the Office of Science. This 
has been--the effort to deal with misappropriation of 
technology, and foreign talent programs, and other sorts of 
behavior we characterize as not in the best scientific and 
technological values around the world. We're following the same 
guidance from originally the Deputy Secretary, now Secretary 
Brouillette. Yes, we've made it clear that if you are a member 
of a foreign talent recruitment program, particularly related 
to countries at risk, you will not be employed by the 
Department of Energy. It's sort of that simple and that 
complicated.
    Now, at our laboratories we've announced publicly that 
we've developed a technology risk matrix of key technologies, 
and their relevance to economic and national security, and so 
we use that to evaluate how likely we are to collaborate with a 
number of foreign partners, particularly those for countries at 
risk. That's now a part of our laboratory structure as well--
whether or not we will collaborate in certain technology areas, 
and that's where we are right now.
    And what we're doing at this point is pausing a little bit 
to see what the effect is because, at the end of the day, I 
think we all understand that China is a science and technology 
juggernaut, and in the long term we're not going to be able to 
just close the doors and shut the windows. We're going to have 
to find a way to modify behavior and work together in some 
areas with the Chinese. So we're looking for a response, and 
we're also pausing to allow the interagency to take a breath, 
figure out what we've all done, and together--what's more 
important than the Department of Energy putting out a new 
policy about this, that, or the other aspect of this, it's that 
we do all of this together with the other agencies, like the 
National Science Foundation (NSF), Department of Defense, and 
others who fund research. So largely looking inward at our 
laboratories and our employees, not yet imposing policies on 
the extramural community that we fund at universities and so 
forth.
    Chairwoman Fletcher. Thank you, that's very helpful. And I 
just have a little bit of time left. I did also notice in your 
testimony that you mentioned the hope of renewing and 
refurbishing some of the facilities, so that comment was not 
lost, and part of my last question that maybe you can just 
touch on throughout the hearing is the ways that we in Congress 
can help advance these policy and other initiatives from this 
Committee, the things we can do to be helpful to you would be 
very useful to us.
    So I've now gone over my 5 minutes, and I will recognize 
Mr. Weber for his 5 minutes of questions.
    Mr. Weber. Thank you, ma'am. Dr. Fall, last week I was 
pleased to see that DOE announced the selection of Brookhaven 
National Laboratory as the site for the construction of the 
electron ion collider, an essential new nuclear physics 
research facility. As I mentioned in my opening statement, I 
feel strongly that these types of DOE national laboratory user 
facilities provide American industry and researchers with the 
tools they need to maintain our leadership in science, and 
develop new materials and technologies. But some of these 
facilities, like the advanced photon source at Argonne National 
Lab, and the advanced light source at Lawrence Berkeley 
National Lab, are in need of those critical infrastructure 
upgrades we talked about. We want them to remain the best in 
the world. These are upgrades we pushed for with bipartisan 
infrastructural legislation that passed the house last 
Congress.
    In your prepared testimony you mentioned that the Office of 
Science is currently working to upgrade both of these 
facilities. Can you give us a status update on both of those 
projects, and then what new opportunities they might afford 
American researchers, please, sir?
    Dr. Fall. Yes. I want to be careful to--I'll circle back 
with particular details of dates and so forth, but we've 
certainly, for both of those, entered into what we call, in DOE 
jargon, CD-3A, which is advance procurement for the kinds of 
long lead time things that we need to buy for these facilities. 
The magnets, for example, take a long time to build and source, 
and other materials like that.
    So the projects have gone through our stage gates, and are 
on track, and on budget, and we feel both of those are in good 
shape. And I do just want to differentiate, as you did, the 
projects, which are in great shape, from the underlying labs, 
which we still have some work to do on, in terms of the 
infrastructure, like electricity, in the case of these 
synchrotrons, light sources, that need to be reliable. As you 
may have heard, Berkeley National Laboratory, because of the 
fires in California, had to shut down twice, at a significant 
cost to the taxpayer, because you don't just turn off the 
lights at these laboratories, and as far as the current 
leadership is aware, it had never shut down before. So twice in 
the space of just a couple of months, so the reliability of 
multiple power sources, that sort of thing, is kind of 
important.
    Mr. Weber. And new opportunities it might afford American 
researchers?
    Dr. Fall. Absolutely. Every time we--so there's the 
science, and then there is the technology, and the engineering 
that goes into building these amazing machines, and that is--
absolutely, you know, diffuses out from the laboratory complex, 
and has wider applicability. Magnetic--I'll just say something 
you may know already, that magnetic resonance imaging came out 
of the magnets for these facilities, right? I mean, the 
original magnet technology led to the development of magnetic 
resonance imaging that has changed our lives, and so all sorts 
of opportunities.
    Mr. Weber. All right. We never know when that next great 
discovery is just right around the corner, so this is pretty 
exciting stuff. Dr. Fall, last week the DOE announced the 
launch of the Energy Storage Grand Challenge, a comprehensive 
program that builds on the Administration's Advanced Energy 
Storage Initiative to accelerate the development, 
commercialization, and the utilization of next generation 
energy storage, the technologies that will sustain American 
global leadership in that particular area. As director of this 
Office of Science, what will you do to support and help make 
sure we maintain these initiatives?
    Dr. Fall. Thank you for the question. It is a huge 
opportunity. As we know, there's phenomenally good penetration 
of renewables in our country: Wind, solar, others. The Achilles 
heel is grid-scale storage, and so that's why not just the 
Office of Science, but the Secretary has directed the whole of 
the Department of Energy--this grand challenge is a whole 
Department initiative, including at NNSA (National Nuclear 
Security Administration), partially. They have less of a role, 
but the Applied Offices, and of course the Office of Science, 
where we do the fundamental work on batteries, characterizing 
batteries, for one, basic material science that feeds into the 
applied side for batteries and other modalities as well. So 
we're participating fully. Again, it's a whole of department 
effort at a very high level. This has the personal attention of 
the Secretary.
    Mr. Weber. Real quick, in the time I have left, in your 
opinion, what basic research programs in the Office of Science 
are the most essential to development of that next generation 
energy storage technology?
    Dr. Fall. Typically energy technologies in general are a 
material science problem. Critical materials and material 
science, that's what leads to a lot of advances in all sorts of 
advanced energy technologies.
    Mr. Weber. OK. I thank you, sir, and, Madam Chair, I yield 
back.
    Chairwoman Fletcher. Thank you, Mr. Weber. I'll now 
recognize Mr. Lipinski for 5 minutes.
    Mr. Lipinski. Thank you. I'd like to thank the Chairwoman 
for holding this hearing today, and thank you Dr. Fall for 
being here today. As Director of DOE's Office of Science, 
you're responsible for overseeing the Department's Advanced 
Scientific Computing Research Program. I think it's more 
important now than ever that the Nation's leadership in high 
performance computing is maintained because of national 
security, economic prosperity, and innovation that are critical 
to our country. And I'm proud that the first exascale computer 
in the Nation, Aurora, will be built at Argonne National Lab, 
which is in my district, but I'm concerned that we're in a 
tight global race through the completion of the first exascale 
computer in the world. I mean, it could be the first one in the 
world if we got there before China does.
    So I'd like to ask if you can give an update on the Aurora 
project, and discuss the potential for exascale computing, and 
the ramifications if we fall behind in this race. And I just 
want to say I know Ranking Member Lucas has been there--also 
had mentioned exascale computing in his opening.
    Dr. Fall. Well, thanks for the question, sir. I think we're 
in pretty good shape with the program. I will tell you we're 
spending every penny that you apply to this program to move as 
quickly as we can. I think we will get there first with the 
machines, but there's so much more to high performance 
computing than just the machines, and I just want to brag a 
little bit that we're covering all of those bases in a way that 
we believe that our competitors are not, and that includes the 
high speed Internet, interconnects between the generation of 
data and the computation on the data, our ESNet. That includes 
completely, at the same time we're building these exascale 
machines, reworking and modernizing the software stack that 
goes into those machines.
    And that's a top down, sort of once in a generation 
reworking of this to move it from what amounts to cottage 
industry scientific computing to using the best software 
development tools, and cross-disciplinary libraries for 
computation, and that sort of thing. So there's a lot more to 
it than just the machines. We still think we're going to get 
there first on the machines. And, again, we're spending every 
dollar that you appropriate----
    Mr. Lipinski. So are you saying you need more? More money?
    Dr. Fall. I can't--no, I wouldn't say that. I'd say we're 
just right where we want to be. But we're spending every dollar 
that you give us.
    Mr. Lipinski. No, go ahead, say you need more money. I'd be 
happy to hear you say it. So Aurora and other DOE 
supercomputers are just part of the Department's work in 
artificial intelligence (AI), and I know that the 
Administration has taken steps to improve coordination on AI, 
but I believe that these coordination efforts could be 
improved.
    Earlier this year I introduced the Growing Artificial 
Intelligence through Research Act, which, in part, ensures that 
there is a central coordinating entity. So, Dr. Fall, can you 
describe how the Office of Science, particularly the Advanced 
Scientific Computing Research Program coordinates with the 
Department's Office of Artificial Intelligence and Technology?
    Dr. Fall. Sure, and maybe I could offer just a little more 
beyond that. So the AITO, as it's called, Artificial 
Intelligence Technology Office, is simply a coordination 
entity, so it doesn't run programs, it's not appropriated to 
run programs. The programmatic decisions on what to spend money 
on, on hardware, on software, and so forth, happen in the 
Office of Science. They happen in the laboratories and programs 
under the Undersecretary for Energy, and also in the National 
Nuclear Security Administration, but there's a lot of things 
that we don't need to do three different, four different, X 
different times. Develop the technology once, try a new 
hardware example once, and the AITO's job is to make sure that 
we are being as efficient as we can, and also, you know, 
getting out of our parochial focus on science, and looking out 
to the remarkable blossoming of AI across the commercial 
sector, and make sure we're buying what we can buy, instead of 
having to grow it ourselves or build it ourselves. So this 
Office does play a really important role, and we're completely 
synced up with it.
    Mr. Lipinski. And how would your AI efforts benefit from 
additional coordination with other Federal agencies?
    Dr. Fall. Well, we're there also. So I guess that's what I 
could've gone into there. So this is a place where the White 
House is doing an exemplary job of coordinating across the 
Federal Government. There are at least two, that I can think 
of, AI-focused bodies, one at a higher, you know, level, and 
then a more working level. They meet regularly. I participate 
in those. We are connected, because of them, with the JAIC 
Program in the Department of Defense, and with other major, you 
know, many agencies are now working on this. So I'd say the 
coordination is actually pretty--this is a good news story 
across the government, coordination, and a sense of purpose 
about the need to actually win at this game. And it is very 
important.
    Mr. Lipinski. And if I can't return for another round, I'll 
give you a question about the National Quantum Initiative for 
the record, though so I yield back.
    Dr. Fall. Thank you.
    Chairwoman Fletcher. Thank you, Mr. Lipinski. I'll now 
recognize Mr. Lucas for 5 minutes.
    Mr. Lucas. Thank you, Madam Chair. Dr. Fall, as you know, 
bipartisan Science Committee legislation H.R. 4091, the ARPA-E 
Reauthorization Act of 2019, authorizes key reforms of the 
Department of Energy's ARPA-E program regarding research scope, 
program evaluation requirements, and efforts to avoid 
duplication. And, being the next questioner after Mr. Lipinski, 
it's only appropriate that I ask you, as current Director of 
the Office of Science, and the former Acting Director of ARPA-
E, can you please describe, using specific examples, if you 
can, the level of intentional complementary research performed 
between the Office of Science Programs and ARPA-E funded 
programs?
    Dr. Fall. Yes, and I could probably offer you, after the 
fact, more of a laundry list of the opportunities, but let me 
just give you one. Earlier today----
    Mr. Lucas. And this leads us over into discussion about how 
you facilitate and----
    Dr. Fall. Right.
    Mr. Lucas [continuing]. Make that happen. If you would?
    Dr. Fall. I can do that as well. We talked about fusion 
energy a little while ago. There's an example where just now we 
are working with ARPA-E to put together a joint funding 
announcement. There's one concrete example. The benefit to the 
Office of Science of working with ARPA-E is this sort of 
special forces nature of ARPA-E, that they can move quickly, 
attack a problem with a lot of focus, and with energy derived 
from bringing people in from the outside to run those programs, 
and so we're always happy, if not to co-fund, then to co-scope. 
So when we're working up a funding opportunity in the Office of 
Science, just as a routine matter, be involving program 
officers, and even contracting officers because of the way they 
know how to do business in a different way, into our process. 
This is what we did with the quantum initiative that we just 
launched last week. This was a cross-agency effort that 
included ARPA-E to, what are we missing here in terms of the 
ability to move quickly?
    Before Secretary Brouillette became Secretary, as Deputy 
Secretary he started something called the RTIC, Research and 
Technology Investment Committee, at the Under Secretary level 
so NNSA, Energy, Science, and the Deputy Secretary, and ARPA-E, 
for just his high-level coordination function, and that's going 
very well. The working group under that does topical deep 
dives, like advanced energy storage, like artificial 
intelligence, and so forth, and reports up to the Under 
Secretary level to assure that we are doing all the cross-
fertilization that we can find opportunity for. And so that's 
relatively new, you may or may not have heard of that already.
    Mr. Lucas. Dr. Fall, as I mentioned in my opening 
statement, I'm pleased to see that the fiscal 2020 
appropriations numbers have adequately provided for U.S.' 
contributions to the ITER Program, the world leading 
international research collaboration into fusion energy that's 
received strong and continued bipartisan support from this 
Committee. As Director of the Office of Science, what will you 
do in FY and beyond to help ensure that U.S. ITER programs 
receive the resources that it needs?
    Dr. Fall. Well, we will follow the law. You've appropriated 
the money, and it will go----
    Mr. Lucas. Thank you, first. That's a very important point.
    Dr. Fall. Yes. Of course we'll follow the law. We're also 
working very hard, frankly, to stimulate our domestic fusion, 
including fusion energy startup community that, at the end of 
the day, will feed into ITER, and projects that go beyond ITER. 
We recognize the intent of Congress, and we will follow the 
law.
    If I can just offer a little awareness--I don't know if it 
was intentional, but I think it bears understanding that we did 
receive an increase of $110 million in order to fund ITER, but 
received an overall increase for fusion energy for only about 
$107 million, and so the obvious consequences, we're making 
some choices there. And I understand budget negotiations are 
complicated, but we'd like to see, if I may--always great to 
have super support. We'd like to also support the domestic, you 
know, be able to say that we're doing something in a relatively 
balanced way, in terms of increasing support. If money goes to 
ITER, we'd also love for money to go to the domestic side as 
well.
    Mr. Lucas. Absolutely, Doctor. And, as you well know, as 
authorizers, part of our process is to help, in a polite way, 
educate the appropriators about common goals we all have 
together. With that, thank you, Dr. Fall, yield back the 
balance of my time, Madam Chair.
    Chairwoman Fletcher. Thank you very much, Mr. Lucas. And I 
would just like to note, Dr. Fall, that for the upcoming year, 
one approach you could take that would be particularly helpful 
would be if you submit a budget request for both of those 
items, and that would be very helpful to us. And now I would 
like to recognize Mr. McNerney for 5 minutes.
    Mr. McNerney. Well, thank the Chair, and I thank you, Dr. 
Fall. I think you have one of the most interesting and fun jobs 
in government. Little bit of jealousy here. But in your written 
testimony you noted that your agency is, ``in the process of 
launching and expanding a number of new initiatives, including 
incorporating artificial intelligence and machine learning into 
many of the new things we do across the Department,'' sort of 
following up on earlier questions. I know that the DOE has 
recently established an AI and Technology Office, which was 
already discussed. Can you speak to some of the DOE's plans for 
leveraging its existing computing infrastructure to develop AI 
and keep our leadership in that area?
    Dr. Fall. Well, I would say, yes, sir, existing and 
planned. All of these new exascale machines have artificial 
intelligence in mind, so we're designing the processing ability 
from the ground up to be able to handle traditional and 
artificial intelligence problems. And we're also, as we 
contemplate the construction and installation of these new 
supercomputers, thinking of a sort of plug-in test bed model. 
So I don't think there is technology available yet to scale to 
some of the new computing architectures that really fulfill the 
promise of AI, but small machines can be plugged into the large 
machines to test that capability, for example.
    So this is being done in an extremely thoughtful way, I can 
say. Again, both the hardware question for AI, the software 
question, and the use cases. So there's just a whole variety of 
use cases across the Department of Energy, and one that I'm 
particularly excited about, because I'm responsible for these 
10 laboratories, is, you know, it's no secret that Amazon, and 
Google, and companies like that use AI to improve their bottom 
line, right? They make more money by extracting data and 
understanding it. We think that we can use AI for operations in 
the Department of Energy as well. So think about acquisition, 
human resources, the use of, you know, spending we do on 
energy, lights, and so forth, that we can turn those tools on 
the operation of our laboratories, and even the Department as 
part of this cross-agency AI push, and get efficiency using AI, 
in addition to the science and technology mission. So that's 
pretty exciting, I think.
    Mr. McNerney. Well, if you do that, then I hope you sort of 
develop products that can be used in the private sector as 
well. So, for the world to meet meaningful emission reductions 
in the next few decades, we'll need to invest in negative 
emission technology. I was pleased to see that in Fiscal Year 
2020, the Energy and Water Appropriations Report directed 
funding to be used for cross-cutting initiatives between the 
Office of Science, Biological Environmental Research, and Basic 
Energy Sciences program. Can you elaborate on specific plans 
and research in this area and the Office of Science?
    Dr. Fall. I can tell you that we just discussed it this 
morning. We have specific plans to do it, we don't know exactly 
what those plans are yet. You know, it--just come out of the 
budget cycle. But the question that we have, and we haven't 
made a decision, is whether to increase funding of existing 
hubs and mechanisms that we already have in place that do some 
of this work, or to go down different avenues, or both. We just 
have to make some choices. But we're on it, and I assure you 
that the money will be spent as directed.
    Mr. McNerney. Yes. Do flow batteries have promise?
    Dr. Fall. That's something that ARPA-E invests more in. We 
do, you know, we could help with the basic chemistry there, but 
both the basic chemistry and the engineering of those things--
that's not my area of expertise, and so I'd like to get back to 
you on that. But on the negative emissions, I do want to 
acknowledge your direction to work with the Office of Fossil 
Energy on negative emissions, and we're having those 
conversations already, so the direction is being followed.
    Mr. McNerney. So following up on Mr. Lucas' questioning, 
I'm enthusiastic about fusion power, the prospects of fusion 
power. What are the different types of fusion power that are 
moving forward in your Department?
    Dr. Fall. Well, the two big ones are, obviously, inertial 
and magnetic confinement, and that's been the case for some 
time. One interesting opportunity that our ARPA-E organization 
has explored is that middle ground. You know, and that middle 
ground is being sort of attacked by this amazing growth of a 
community of startup companies in this country, thinking that 
these intermediate technologies--you don't need to build 
something as big as ITER, or as big as NIF (National Ignition 
Facility), in order to get to a successful place in fusion 
energy. And we're very interested in continuing to support this 
community, you know, both through traditional science and 
technology funding, but also through new mechanisms, using our 
labs as resources that these companies can access, potentially 
even moving toward what NASA (National Aeronautics and Space 
Administration) calls their COTS (Commercial Orbital 
Transportation Services) model for, you know, Space Act sorts 
of authorities to put together public/private partnerships to 
grow industries. There's a lot of opportunity here, sir, and 
we're extremely excited about this, you know, both the 
participation in basic research, and in demonstration projects 
like ITER, but also in this intermediate startup space.
    Mr. McNerney. Well, you know, there used to be the joke 
that it's 50 years away. I don't think that's the case anymore, 
is it? I mean, we have real prospects now, right?
    Dr. Fall. Well, I don't want to do math in public, but it 
still is a ways off, but we're certainly moving quickly toward 
that goal.
    Mr. McNerney. Thank you. I yield.
    Chairwoman Fletcher. Thank you, Mr. McNerney. I'll now 
recognize Dr. Baird for 5 minutes.
    Mr. Baird. Thank you, Madam Chair. And, Dr. Fall, in your 
prepared testimony, you state that one of the Office of 
Science's goals is to enhance the U.S. biosecurity. So I come 
from an agricultural background, and I represent a district 
that is deeply rooted in agriculture, so could you share what 
might be being done in the biosecurity, and that agricultural 
industry?
    Dr. Fall. Well, less in agriculture, because that's the 
mission of the Department of, you know, we're sort of 
constrained a little bit by the rules and the laws about what 
we can work on, but the enabling technology is something that 
we've been doing stretching back to our participation in the 
Human Genome Project. So we know how to sequence genes, we know 
how to understand what genes do in cells. We're very interested 
to leverage one of our superpowers in the Department of Energy, 
and that's convergence. That's putting together biology with 
physics, and mathematics, and computing to understand biology 
in a fundamentally new way, and explore the opportunities of 
engineering biology for health, for products, for agriculture, 
but also, you know, when you can change biology, there's a 
threat involved, and so understanding what the threat space is, 
and being prepared to defend against that is something that we 
can do at the Department of Energy in a sort of unique way.
    Mr. Baird. Thank you. Also, you gave us some indication 
about the implementation of DOE's policies to prevent foreign 
infiltration, specifically in DOE's basic research space and at 
the national labs. Could you elaborate on that, or at least 
give us some idea how we're preventing foreign infiltration 
into our basic research?
    Dr. Fall. Well, I did mention that we have a policy about 
the foreign talent recruitment program, so this is, you know, 
this is a way of recruiting, you know, basically appropriating 
technology from other countries. That's a no for us. At the 
same time, we are, you know, massively increasing our ability 
to understand who is at our laboratories. You know, who's at 
our laboratories, where are they from, what are they asking to 
do there, and have a filter for that. That's really important, 
while recognizing that science is a fundamentally international 
activity, and we lose by saying no to everybody. So it's a 
tough problem.
    So the Foreign Talent Program's relatively easy. The 
understanding who's in and who's out of our laboratories is 
also relatively straightforward. Then we have to make the 
decision about, you know, who to let in, and who not to let in. 
Fundamental to all of this is enforcing policies that we've 
actually had in place, as have other agencies for quite a long 
time, and that's disclosure. You know, if you're going to come 
and either work for us or work with us, we ask you to tell us 
who's funding you, where are you from, what are your 
affiliations? And, you know, the first step is to require a 
disclosure.
    Second step is to ask, well, is the disclosure truthful? 
That's a, you know, whole separate line of business. But just 
that act of saying, in order to work with us, you need to tell 
us who you are, and what you're all about, is important. And, 
surprisingly, over the decades, agencies, not just ours, but I 
think all of us have gotten a little bit lax about enforcing 
the requirements that always came with grant applications and, 
you know, applications to come visit, and so forth. So that's a 
really important part, the disclosure part.
    Mr. Baird. I can appreciate that is a real challenge, 
because you don't want to be so restrictive that we can't 
advance, you know, scientific advancement, but at the same time 
you'd like to have others share in the cost of getting that 
done, not just American taxpayers. So I thank you for your 
comments, and I appreciate you being here today, and I yield 
back.
    Dr. Fall. Thank you.
    Chairwoman Fletcher. Thank you, Dr. Baird. I'd now like to 
recognize Mr. Foster for 5 minutes.
    Mr. Foster. Well, thank you, Chairwoman Fletcher, Ranking 
Member Weber, and Dr. Fall for joining us today. First off, I'd 
like to congratulate you on the siting decision on the EIC at 
Brookhaven. You know, these siting decisions are really tough, 
and Congress often does not make them easier, but as someone 
who's sort of a connoisseur of technical design reports, and 
also, probably even more importantly, the physics capability 
documents that really are the important ones to look at on 
these--when you have competing proposals. I can tell you, at 
least from my opinion, you made the right decision technically, 
and for the physics, from these. And your timing was also 
excellent because the National Labs Caucus was already planning 
a visit to Brookhaven at the end of this month, which you're 
very welcome to come to, if you can make it there, or send 
somebody to join multiple Members of Congress.
    Now, as you know, Argonne National Lab in my district is 
working very hard on supercomputing, as well as artificial 
intelligence. Last November sort of snuck under a lot of 
people's radar screens, but Argonne tested in a commercial 
partnership with Cerebras, a giant wafer scale--the fastest AI 
engine in the world. And this is a commercial partnership that 
is, you know, it's great. It's the wave of the future in AI, 
with so much commercial money going into it. But, you know, the 
main program at Argonne is Aurora, which we hope will be the 
first exascale computer on Earth, certainly will be in our 
country.
    But I'm a little less sanguine about the probability that 
the Chinese won't beat us in this, and, you know, at least some 
of that's due to the fact that Congress delivered a little less 
money than Brookhaven had requested in this year. There's a 
shortfall there. But one of the ways that you have available to 
partly make up this shortfall is with the $71 million for AI 
and machine learning--for a number of Office of Science 
programs. I was wondering, have you come up with a plan for how 
to allocate that money, and is it likely that that may be 
useful for helping some of the shortfall in the Aurora effort?
    Dr. Fall. Well, I'd be reticent to commit to moving money 
from one to the other, because then we get the other side 
complaining.
    Mr. Foster. But there is certainly opportunity there.
    Dr. Fall. But we haven't decided how to spend all the 
dollars in terms of exactly where they're going, but we kind of 
know what we're going to spend it on. There's just a ton--as 
you know, from your background, just a ton of opportunity, from 
enhancing the ability of these machines to do calculations in a 
new way to, at the front end, sort of pre-computing, pre-
calculating, pre-sorting the mass of data that comes out of the 
science machines, right, all along the way. Never mind, you 
know, running something like an accelerator using AI as an 
assistant, if you will.
    So across everything we're doing in the Office I talked 
about AI for operations at the laboratories. That's, I think, 
novel and innovative for a Federal agency, but what's clear is 
the opportunity for us across the basic sciences--that's why 
we're spending so much money on it. It's not by accident. So I 
want to be cautious about committing to moving money around. 
You can use----
    Mr. Foster. Yes, it's obvious that these are combined 
hardware/software efforts, and then there is some degree of 
fungibility once the money hits the laboratory. And if you 
build the hardware, and don't have the software in place, the 
algorithms, the scientific participation, you don't get nearly 
as much out of that hardware. Another thing that came up, 
actually, in response to the previous questions involving 
biology, is one of the real areas of growth recently is in so-
called cell-free technologies, you know, where you take 
advantage of the enzymatic pathways that nature provides, but 
you don't have these annoying cells around that proceed to 
evolve and do other things to wreck your culture. I was just 
wondering if that's something where you think there may be a 
natural area of participation for the Office of Science.
    Dr. Fall. Well, absolutely, because what that allows is 
science at scale, which is what we do. It's the high through-
put paradigm. When you can do cell-free systems in multi-well 
plates, using robotics to do the mixtures and so forth, that's 
where you get a whole lot of information very quickly, and 
that's the kind of thing that the Department of Energy does is 
big science, big machines, integrated data, and so forth. So I 
would say yes.
    Mr. Foster. So I'd just encourage you to have a look at 
that, because it's a new field, and it sort of falls between 
the cracks in some ways. And then finally, on quantum, there 
are three broad buckets. There is building quantum computers 
with technology at hand, there's quantum instrumentation and 
sensing, which is often separate thing, and then there's 
developing fundamental sciences, new materials, and devices in 
support of quantum. And, to make it even more complicated, you 
have the military off on the side, you have significant 
efforts, commercial. So how do you make sure that the Office of 
Science is focusing on what you can uniquely do best there?
    Dr. Fall. And I would also add--I think you mentioned, but 
I'm not sure, quantum communication, exactly, which is also a 
low hanging fruit. So, yes, we're the Nation's experts in 
material science. Quantum is another place, like advanced 
energy, it's all about materials at this point, and also 
systems engineering, when you start to think about the cooling 
required, and so forth. So we are being very cautious.
    I think that some of the direction that we're going to go 
in will shake out of the process by which we choose these 
quantum centers that we've just announced. We're expecting a 
whole lot of input. Not just innovative science programs, but 
innovative collaboration models and so forth, and so I think 
there's a lot of opportunity there. And I don't want to get 
ahead of my skis in public here, but I think you're going to 
hear more very soon about quantum networking and communications 
on a larger scale. And so we're moving as quickly as you allow 
us to with the resources you provide----
    Mr. Foster. Thank you. My time is up, and I'll have to 
yield back.
    Chairwoman Fletcher. Thank you very much. I'll now 
recognize Mr. Cloud for 5 minutes.
    Mr. Cloud. Thank you, Madam Chair. Dr. Fall, we appreciate 
you being here. You mentioned that China is a technological 
juggernaut, and it occurs to me that this isn't because of 
necessarily major breakthroughs that they've made, but rather 
our naivete toward them over the last few decades, and the fact 
that they're stealing technology from us and others. You 
mentioned some things that we're doing, in the sense of being 
careful about who we're allowing to work at the labs and such, 
but could you speak to what else DOE is doing to better secure 
the Office of Science Research against, for example, cyber 
theft?
    Dr. Fall. Well, yes, let me start by saying much of what we 
do in terms of results is public science anyway. You know, we 
publish the work because we're a basic science organization. 
Many, but not all, of our laboratories, because they're funded 
by multiple sources, also have national security missions, and 
we sit in a department that has perhaps the most sensitive 
national security mission in the country, with the strategic 
deterrent and those weapons. We know how to do security, and we 
live in an environment--it's funny that I often complain about 
how most Americans don't understand the role that the 
Department of Energy plays in science. They don't know that we 
have labs, they don't know that we do all this work, and that's 
because we spent the first 70 years of our existence not 
telling anybody what we do, right? So we understand security. I 
think, part of the problem is actually advertising the amazing 
things that we do.
    Secretary Perry, before he left, stood up CESER, 
Cybersecurity, Energy Security, and Emergency Response 
division, and a whole new Assistant Secretary in the Department 
of Energy just focused on cybersecurity, and that's 
cybersecurity of the grid, cybersecurity of the lab, 
cybersecurity of operations. We're attacking the problem. We 
understand that it's a problem always, and--but we do come from 
a posture of understanding security problems. It's not a 
naivete----
    Mr. Cloud. Right. I get the picture, I always have, with 
regards to China and funding, I mean, we spent I think $7 
billion last year from Congress, and it's the picture of this 
bucket that we're pouring into, but there's a hole in the 
bottom going into a bucket that China's sitting there, you 
know? And so when we think about how to expand our capacity, 
it's not just more funding as it is, sometimes, I think, 
closing that hole a little bit so more stays in our bucket.
    We know China's sending foreign actors to universities, for 
example. Some of our research dollars are going to 
universities, and working with that. Of course, that's not 
every student there, but certainly there are foreign actors. Is 
there anything that we're doing in regards to making sure that 
research funding that's being funded by taxpayer dollars isn't 
going to fund the China government initiatives?
    Dr. Fall. Yes, sir. We're not rolling out any policies at 
this point, but we are having--a little bit earlier I mentioned 
that we are participating with the inter-agency--we want to 
make sure that any steps that we do take regarding extramural 
research to universities and other organizations is done in 
coordination with all the agencies so that we do it the same 
way. For all sorts of reasons, it's not going to work for the 
Department of Energy to have sort of rules, and NSF another 
set, and so forth. We recognize the problem, and we are 
actively discussing alternatives. It will probably take some 
authorizing, you know, changes to authorization and so forth, 
because there are rules about how you, you know, open access 
here to funding and so forth.
    Mr. Cloud. Right. OK. Shifting gears a little bit, could 
you compare/contrast where we are in China when it comes to AI, 
and then specifically what the DOE's doing to apply 
advancements in AI toward how we manage our electric grid?
    Dr. Fall. Yes. I would defer Part B, which is the electric 
grid, to the Assistant Secretary for Electricity--but I can 
tell you that we're working closely together. The Office of 
Science provides the basic AI technology, the machines and so 
forth, and, frankly, the connections out to industry and 
academia. They're leveraging it. I'm not current on exactly 
what they're doing, but I know it is a complete priority. The 
Office of Electricity and Cybersecurity, and Emergency Response 
Assistant Secretary is for protecting the grid, which is 
largely an Internet of Things. I mean, it's absolutely a 
threat. Part A was, I'm sorry, China and----
    Mr. Cloud. Compare our capacity to China when it comes to 
AI.
    Dr. Fall. You know, this is another place where it's a 
footrace with no clear--I would say no clear--it's hard to say 
who's ahead in AI, frankly, and I think most experts would 
agree AI is a little bit still of a boutique industry. There 
are more researchers in China working on AI than there are in 
this country. And also, one of the key enablers of AI is data, 
and we all know you don't need to have a poor social score to 
understand that China is amassing a lot of data on people, and 
things, and processes, and putting it together for use in a way 
that we don't in this country on principle. And so there is an 
advantage there for them in terms of AI, but, of course, the 
consequences are things that we prefer not to entertain, like 
personal social scores.
    Mr. Cloud. Thank you. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Cloud. I'll now 
recognize Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you, Madam Chair. Dr. Fall, thank you for 
joining us today, and for all your service to the country. In 
2018, the Department of Energy Research and Innovation Act was 
signed into law, and I believe it required the re-establishment 
of a low dose radiation research program, the idea being that a 
lot of the basic scientific data underpinning radiation limits 
and requirements had a lot to do with survivors of the atomic 
attacks. It might not have been as directly relevant to, for 
example, the plant workers at the nuclear plant in my district 
who experienced low levels over a long period of time, so with 
the goal being just accuracy as far as what we know about where 
those measurements and what those regulations need to be for 
the health of the workers, but also the competitiveness of the 
industry.
    I think again in FY 2020, we directed the establishment of 
another low dose radiation research plan, or same one, just 
funding for it. Just asking for an update on progress in that 
area. Does that sound familiar to you?
    Dr. Fall. Yes, sir, of course. And I'm going to be really 
careful with the words, because I think it was established, not 
re-established, and that's germane because our position is that 
there are some new opportunities here, technologies that we 
didn't have originally, things like computational, things like 
cell-free and other mechanisms so we're actively--we understand 
we've been directed to do this. We understand that we're 
directed to spend a certain amount of money, I believe it's $5 
million this year. We're going to do that.
    We are in active conversations with the National Cancer 
Institute at NIH (National Institutes of Health), who has 
similar problems, if you think about the causes of cancer, and 
the impact of imaging, like x-rays and so forth, so they want 
to understand this as well. So we're working with them, as well 
as an inter-agency group under the Office of Science and 
Technology Policy, who's getting together and saying, ``hey, 
here are our options here. It doesn't make sense to do five 
different things. Let's get together on a low-dose program.'' 
So we are following the guidance, we think, in a way that makes 
sense, and I'm happy to get you more detail on that. I do know 
that we haven't made any particular funding decisions on people 
or places yet, but happy to keep you up on the details.
    Mr. Lamb. Great. Just making sure it's underway. Thank you.
    Dr. Fall. Absolutely it is, yes, sir.
    Mr. Lamb. And then I wanted to ask about fusion, and some 
of my colleagues did as well. And I had the chance last summer 
to visit the project up at MIT, which is really just an 
impressive and fascinating piece of work, and they're doing 
pretty well now with private-sector funding. And one of the 
things that I came to understand in the history of that project 
was the importance of Federal funding, you know, throughout so 
many years of their history, particularly on the research on 
the magnets, and now they're not really receiving Federal 
funding for that project anymore. And so first question is just 
of in line with what you said earlier about the $110 million 
and the $107 million, are you concerned that too much of our 
Federal share of fusion research, or all of it, is going to 
ITER, basically, in the sense that we're kind of putting all of 
our eggs in one basket, as opposed to cultivating some fusion 
research here at home at the same time?
    Dr. Fall. Well, I wouldn't go that far, because obviously 
it's a $670-something million dollar program, fusion, plasma 
sciences, and so forth, and some part of that is going to 
fusion, $240-something, I believe. I'm more worried about the 
balance. I'm worried about sustaining both. If we're going to 
participate in ITER, we also should be paying attention to 
nurturing these folks. We have a lot of great ideas, and, of 
course, there is an enduring question, if there's going to be a 
demonstration project in this country, should there be one 
here? Sorry, in the world, should there be one also here? I can 
offer that there's probably, you know, we love all of our 
programs equally. I think I can offer that our Undersecretary 
for Science, there's no program that's more important to him 
than getting fusion on a right path, and so we're paying an 
awful lot of attention to this.
    Mr. Lamb. Perfect. And if I could just ask you, right 
before my time runs out, there was this National Academies' 
report at the end of 2018 that kind of talked about doing 
demonstration here at home, but particularly emphasizing the 
advances in high temperature magnets in kind of a smaller, 
faster, more efficient approach. Is that promising? Is that 
something you think the government should be investing in, and 
will we need to give new authority to make that possible.
    Dr. Fall. Right, high-temperature superconducting magnets. 
Yes, and then--well, I don't want to say we should go forward. 
What we are going to do, what we've already done, is contacted 
the National Academies, it was the Burning Plasma Report, and 
asked them to do a follow-on discussion. They recommended doing 
a demonstration plan, but with no guidance beyond that. We'd 
like them to explore that in detail, tell us the options, tell 
us what they think it would cost us to do that. We've already 
started the conversations with that to get more information. 
It's certainly something we should understand, and then we 
weigh, you know, the costs and benefits of doing it here versus 
other places.
    Mr. Lamb. Excellent. Thank you very much. Madam Chair, I 
yield back.
    Chairwoman Fletcher. Thank you, Mr. Lamb. I'll now 
recognize Mr. Casten for 5 minutes.
    Mr. Casten. Thank you, Madam Chair. Thank you so much, Dr. 
Fall. I think I'm the only thing between you and the end of the 
evening. Really appreciate you coming out. I have the good 
fortune to have a district that just to my west is Fermi Lab, 
and just to my south is Argonne, and have had the pleasure of 
touring both, and meeting with a lot of your scientists 
multiple times, and I appreciate having the opportunity to nerd 
out so close to home, so I appreciate that.
    I want to talk specifically about climate change, and what 
we're doing for it, which is, in many cases, a deployment 
problem. We under-deploy lots of proven technologies, but 
there's a hugely significant role that the national labs play, 
and in particular there's some really interesting work going on 
at Argonne around energy storage, and I've been involved in the 
Promoting Grid Storage Act to increase funding, and I don't 
know if it's sufficient, frankly, but, you know, but at core we 
have more than enough clean, zero cost energy to run the 
country, but it isn't where the loads are, and it's not always 
running at the time that the loads are there. And either we 
need to figure out how to build a lot more transmission than 
we've figured out politically how to build, or how to deploy a 
whole lot of storage around the grid at an efficiency level 
that's much higher.
    So could you, you know, I think we gave you a $420 million 
increase in your budget last year, which I look forward to 
hearing how you're going to use, but tell me, if you would, 
where you see the gaps in energy storage, and, if you'd like, 
transmission, from a science perspective, what we are doing, 
and what we should be doing more of to try to bridge those 
gaps.
    Dr. Fall. Well, thank you for the question. Someone was 
asking earlier about cybersecurity for the grid, and the 
intersection of AI with the grid. I would say also what hasn't 
been mentioned here today is the opportunity that automating 
the grid provides for squeezing more out of it. So, you know, 
using AI, using Internet enabled, using, you know, 
computational technology to understand energy flow on the grid 
lets us do more with less generation, for example.
    But, that said, this is why the advanced--we talked a 
little bit, excuse me, earlier about the Energy Storage Grand 
Challenge. I think that we feel in the Department that we're on 
a great track, and moving rapidly, mainly due to market forces, 
frankly, on the deployment of renewables. But the ``Achilles' 
heel'' for more renewables, you have to have storage. You've 
got to have the load, you know, available, as you said. 
Reliable electricity is really important, and so storage is the 
most important piece. And I would say, of all of this, of 
storage and renewables and so forth, something we do in the 
Office of Science, in terms of materials science, something 
that ARPA-E does a lot more of, something that EERE, Energy 
Efficiency Renewable Energy, does a lot more of, in terms of 
closer-end technologies. I don't know if I've--happy to go back 
and forth here----
    Mr. Casten. Yes, and I'd love to continue to conversation. 
There's no right answer to the question. I just know that if 
we're going to get to 100-percent renewables, we've got to 
solve that storage problem, in terms of the technology and the 
deployment. With the time I've got left I want to talk about 
the science of climate change. It strikes me that we have two 
significant gaps. There's one gap that we talk about ad 
infinitum, which is true, that climate models are uncertain, 
and they get tighter and tighter, and there's better and better 
computational power, and I've never met a scientist who didn't 
want a bigger computer. And that's fine. As against that, we 
have really limited tools to understand what the impact is of 
the policy. So, you know, we had, you know, hearings this 
morning that, you know, one of our witnesses was talking about 
changes in agricultural policy, trying to get a good 
understanding of, OK, if we want to get to this goal of parts 
per million in the atmosphere, how much can this agricultural 
policy change, on a permanent basis, accomplish? These are 
scientific questions. So you can take either or both, but what 
do you think we could be doing better both to have better 
predictive models of what is going to happen under various 
scenarios, and on the other side, better models to understand 
for a given policy change, or behavioral change, what's the 
impact going forward? Because that's going to affect the amount 
of flow into the system.
    Dr. Fall. Right. Well, I'll pass on the second, because 
that's not my area of expertise, and I'll maybe talk about the 
computational side. We made a big deal today about these 
exascale computers. I talked a little bit about the software 
stack that goes into that, and one of the things that we are 
doing under the BER division is completely rebuilding these 
Earth systems models. At the end of the day it turns out that 
size matters, and what do I mean by that? The scale at which 
you do these computations, actually, you have to go small. You 
have to use an exascale supercomputer in order to capture the 
nuances in these Earth system models, and so that's what we're 
buying with these exascale machines, exactly what you said, 
better precision on the computation. And it's not just a wish 
list for scientists. You have to do that in order to be able to 
predict the weather. You know, the better you do, the smaller 
spatial and temporal scale you compute on for these 
predictions, the longer your prediction is valid. That's for 
weather, that's for Earth systems, that's for all of these 
things. And so I think we're moving in a great direction. This 
is a huge effort in this division of ours, to fundamentally, 
from the ground up, rebuild--with the inter-agency. It's not 
just the Department of Energy. It's working with NOAA (National 
Oceanic and Atmospheric Administration), and these other 
agencies who have a dog in this fight to rebuild the Earth 
systems modeling. I don't know if that's helpful.
    Mr. Casten. Thank you. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Casten. Dr. Fall, we 
are almost finished, but because you gave us some really 
interesting things to think about, I'm going to just----
    Dr. Fall. Where did I make a mistake?
    Chairwoman Fletcher [continuing]. An additional round of--
--
    Mr. Weber. When you showed up.
    Chairwoman Fletcher [continuing]. Just a question, so for 
any remaining Committee Members, if you have an additional 
question, I'm going to open it up for that. I wanted to follow 
up on your question and answer with Mr. Lamb, and just follow 
up a little bit on the ITER question, because my understanding 
is, since his appointment as Director General of the ITER 
International Fusion Project 5 years ago, Dr. Bigot and his 
team have made remarkable progress in improving the management 
of what may well be the most complex scientific project in the 
world.
    As you know, the U.S. played a leading role in pushing for 
major personnel and management changes that have gotten the 
project back on track, but the last three budget requests for 
ITER have been a fraction of the DOE-approved estimates for 
what it will take to minimize the project's total cost to U.S. 
taxpayers, and to maintain the current schedule. So my question 
is, do you agree that the DOE's most recent budget requests for 
ITER have been a fraction of what it will take to minimize the 
project's total cost to U.S. taxpayers, and to maintain the 
current schedule, and if so, how will you address that going 
forward?
    Dr. Fall. OK.
    Chairwoman Fletcher. Easy question.
    Dr. Fall. Well, first of all, let me say that Bernard Bigot 
is an international hero. He absolutely has turned around the 
ITER Organization, absolutely brought a remarkable difference 
to the management of the project, and things are going in a 
much better direction. And it is true that the budget request 
that we made is less than what we've, frankly, committed to in 
the international agreement that we're a part of. I'm not 
willing to go beyond that, in terms of motivation. That's 
between you all and the President at some point. What I will 
commit to, as always, is, you know, you tell us what we're 
going to do, and we will do that. We will follow the rules, the 
law, and spend the money that you instruct us to do.
    Chairwoman Fletcher. Thank you very much for that, and I do 
appreciate your answer in explaining to us where we are, and I 
know that this Committee has been particularly interested, and 
Chairwoman Johnson, in particular, has worked hard to ensure 
that the funding is appropriated, and that that goes through 
the process. So thank you for clarifying that for us. That was 
my one question, so now I'm going to turn it over to and 
recognize Mr. Weber for a question.
    Mr. Weber. Thank you, ma'am. Dr. Fall, earlier in your 
testimony about infrastructure, and the need to upgrade the 
basic infrastructure of the National Labs, and we talked about 
we couldn't attract the world's best talent if we didn't do 
that. One of the questions I didn't get to ask was, have you 
see that state of our national labs, the basic infrastructure 
state needing repair? Have you noticed, seen, or heard, has 
that impact or had a high impact on the workforce retention out 
in community, out in industry? Are you aware of any of that? 
Has that had an impact on workforce retention?
    Dr. Fall. In our laboratories, yes. At the end of the day, 
you know, in a tight labor market, where there are a lot of 
choices, these things start to matter a lot. The one thing that 
brings folks to our laboratories is the mission, but at some 
point, you know, if they get paid less, and they also show up 
to a leaky building with old computers and all that kind of 
stuff, it starts to take a toll. It's important to provide 
modern, effective workplaces to technical people.
    Mr. Weber. So that's obviously impacted the labs. When 
people leave the labs, do you have a sense or know where they 
go, and the quicker they come in and out, has it impacted the 
workforce? In other words, if we could retain them longer, and 
get them trained up, and get them really solid, would that help 
industry? Do you have any sense of that at all?
    Dr. Fall. It would help industry side. Guess I'm not 
following your question exactly, but we're--let me just take 
one step back and say my personal opinion is we've got these 
three legs of the stool. We've got industry, we've got 
academia, and we've got our national labs, and I'm very 
comfortable with robust flow between those sectors. The problem 
we actually have is we make it hard for people to leave and 
come back, and this is what people want to do. So if we could 
lower the barriers, I think we'd all be in a better place, 
industry, and the Labs, and----
    Mr. Weber. Well, that really is my question, because they 
can go to the Labs, great training grounds--a lot of good work 
in, take that expertise, go out in an industry. And then do 
really good stuff for industry, but if we're not kind of a 
training ground, if we're not--where they're applying that--I 
just didn't know if you were getting any sense from industry 
around, look, we're just not getting as many qualified people 
as we used to be because they come in, they don't stay that 
long, they go somewhere else pretty quick.
    Dr. Fall. In the Labs. I mean, this is a, you know, again, 
tight labor market, lots of choices, lot more money in other 
places. That impacts us particularly in things like AI, 
computer science, and so forth. Hard to find too many places 
with particle colliders or synchrotrons. You know, if that's 
your thing in life----
    Mr. Weber. It's not on every corner. Although I've seen 
some streets in Texas that there is a lot of colliders on the 
corners. Thank you so much. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Weber, and thank you 
for the comic relief. It's always appreciated. And, with that, 
I do want to bring the hearing to a close. But before we bring 
the hearing to a close, Dr. Fall, I really want to thank you 
for coming and testifying, and answering our questions today. 
The record will remain open for 2 weeks for additional 
statements from Members, additional questions the Committee may 
want to ask. But I thank you very much for being here, and now 
the hearing is adjourned.
    Dr. Fall. Thank you. My complete pleasure.
    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Dr. Chris Fall

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
